TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Internal Revenue Service’s Federal
                   Financial Management Improvement Act
                  Remediation Plan As of December 31, 2008



                                           July 30, 2009

                              Reference Number: 2009-10-094




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     July 30, 2009


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER



 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – The Internal Revenue Service’s Federal Financial
                                  Management Improvement Act Remediation Plan As of
                                  December 31, 2008 (Audit # 200910006)

 This report presents the results of our review of the Federal Financial Management Improvement
 Act of 1996 (FFMIA).1 The overall objective of this review was to report to Congress, as
 required by the FFMIA, any instances of and reasons for missed intermediate target dates
 established in the Internal Revenue Service’s (IRS) FFMIA remediation plan as of
 December 31, 2008. We also evaluated whether, in general, the IRS was meeting its
 responsibilities in fulfilling the intent of the FFMIA. This review was included in our
 Fiscal Year (FY) 2009 Annual Audit Plan and was performed to meet our requirement under the
 FFMIA that states, in general, each Inspector General shall report to Congress instances and
 reasons when an agency has not met the intermediate target dates established in the remediation
 plan. This review is part of our audit coverage under the major management challenge of
 Improving Performance and Financial Data for Program and Budget Decisions.

 Impact on the Taxpayer
 The FFMIA remediation plan is a critical part of the IRS’ efforts to bring its financial
 management systems into compliance with the FFMIA and to provide reliable, consistent
 financial data. Our analysis of the IRS’ December 31, 2008, FFMIA remediation plan found
 4 resource estimates relating to Computer Security,2 totaling $41.3 million, that could not be
 verified from the supporting documentation provided by the IRS, and 3 remediation actions that
 did not include complete resource estimates beyond FY 2009, even though the estimated


 1
     Pub. L. No. 104-208, 110 Stat. 3009.
 2
     See Appendix V for a description of the projects mentioned in the report.
                                     The Internal Revenue Service’s
                            Federal Financial Management Improvement Act
                              Remediation Plan As of December 31, 2008



completion dates are not until FY 2013. Complete financial information is critical to the
IRS’ ability to accurately report on the results of its operations to both internal and external
stakeholders, including taxpayers.

Synopsis
During Calendar Year 2008, the IRS reported that it added 50 remediation actions to the 34 open
remediation actions listed in its December 31, 2007, FFMIA remediation plan. The IRS also
reported that it implemented a comprehensive Computer Security action plan during April 2008,
which resulted in the cancellation of 25 remediation actions and the implementation of 39 new
actions. During our review, we found that 4 of the 39 new Computer Security remediation
actions were extended beyond 3 years. As required, the IRS, through the Department of the
Treasury, properly obtained Office of Management and Budget concurrence to extend its
corrective actions beyond the 3-year limitation. The remaining 11 remediation actions added in
Calendar Year 2008 were related to the Custodial Detail Data Base, Redesign Revenue
Accounting Control System, and Automated Trust Fund Recovery System. These additional
actions did not materially affect the completion dates for any existing actions.
The IRS also reported that it completed 18 remediation actions, leaving 41 open remediation
actions in its December 31, 2008, FFMIA remediation plan. Our review of the 41 open
remediation actions indicated that the IRS missed no intermediate target dates. However, our
analysis found that the IRS’ December 31, 2008, FFMIA remediation plan did not include
remediation actions to address certain Government Accountability Office findings and
recommendations related to the IRS’ noncompliance with the FFMIA. These findings and
recommendations related to the IRS’ Integrated Financial System, which provides the IRS with
an integrated accounting system to account for and control resources. We believe it is critical
that the IRS maintain and continue to report in its FFMIA remediation plan all significant open
findings and recommendations relating to FFMIA noncompliance.
In addition, we previously reported3 that some resources listed in the IRS’ December 31, 2006,
FFMIA remediation plan were not verifiable to supporting documentation and recommended that
the IRS review resources listed in future plans for accuracy. Although we reported4 that the IRS
took effective steps during Calendar Year 2007 to address this finding, we continue to find
instances where the resource information for certain remediation actions is either unsupported or
incomplete. Specifically, during our review of the IRS’ December 31, 2008, remediation plan,
the IRS was unable to provide supporting documentation for 4 Computer Security resource


3
  The Internal Revenue Service’s Federal Financial Management Act Remediation Plan As of December 31, 2006
(Reference Number 2007-10-077, dated May 21, 2007).
4
  The Internal Revenue Service’s Federal Financial Management Act Remediation Plan As of December 31, 2007
(Reference Number 2008-10-096, dated March 28, 2008).
                                                                                                             2
                                     The Internal Revenue Service’s
                            Federal Financial Management Improvement Act
                              Remediation Plan As of December 31, 2008



estimates totaling $41.3 million. As a result, we believe the IRS’ current procedures are not
effective and that additional procedures are needed to effectively ensure that all remediation
actions have verifiable and complete resource estimates.
The IRS also did not include complete resource estimates for several of the remediation actions
included in its December 31, 2007, and December 31, 2008, FFMIA remediation plans. For
instance, during March 2008, we reported5 that 13 Computer Security remediation actions
reported in the IRS’ December 31, 2007, FFMIA remediation plan included estimated resources
for FY 2008 only, even though the scheduled completion dates were not until FY 2009 or
beyond. In addition, during our review of the IRS’ December 31, 2008, FFMIA remediation
plan, we found three Computer Security remediation actions that did not include complete
resource estimates beyond FY 2009, even though the estimated completion dates for these
actions are not until FY 2013.
Accurate and complete resource estimates are necessary to effectively evaluate the commitments
needed to fully implement all of the remediation actions presented in the IRS’ FFMIA
remediation plan. Without the appropriate estimates, the remediation actions could be delayed as
a result of insufficient resources being available when needed. Further, until these remediation
actions are completed, the weaknesses in the IRS’ financial management system related to
Computer Security issues will continue to exist.

Recommendations
The Chief Financial Officer should ensure that the incomplete and unsupported information
identified during our review is appropriately updated in future remediation plans. In addition,
the Chief Financial Officer, along with the owners of the individual remediation actions, should
strengthen the policies and procedures for reviewing the IRS’ FFMIA remediation plans to
effectively ensure that future plans include 1) complete and verifiable financial resource
estimates for each year until the planned actions are completed and 2) all open findings and
recommendations relating to FFMIA noncompliance and remediation actions to address such
findings. Further, the Chief Financial Officer should develop a comprehensive system for
tracking the remediation actions included in the IRS’ FFMIA remediation plans to effectively
ensure that the reason for removing a remediation action is properly documented and maintained,
which would provide the users of the FFMIA plan with a consolidated list of open and closed
remediation actions as well as an explanation for any additions or deletions. Additionally, the
IRS should obtain written concurrence from the Government Accountability Office and the
Department of the Treasury that a recommendation is fully addressed prior to removing the
associated remediation action(s) from its FFMIA remediation plan.

5
 The Internal Revenue Service’s Federal Financial Management Act Remediation Plan As of December 31, 2007
(Reference Number 2008-10-096, dated March 28, 2008).
                                                                                                            3
                                  The Internal Revenue Service’s
                         Federal Financial Management Improvement Act
                           Remediation Plan As of December 31, 2008



Response
The IRS agreed with two of the four recommendations made in our report. Specifically, the IRS
stated that it will ensure that future remediation plans include 1) the necessary supporting
documentation for the four identified Computer Security resource estimates and 2) resource
estimates for each year until the planned actions are completed.
The IRS partially agreed with one of the remaining recommendations. Specifically, the IRS
obtains written concurrence from the Department of the Treasury when it requests to close a
material weakness or significant deficiency. The IRS also stated that it will continue to work
with the Government Accountability Office to demonstrate how the actions it has taken address
the material weaknesses and significant deficiencies. The IRS disagreed with the part of the
recommendation that related to the implementation of a comprehensive tracking system. The
IRS stated that it currently has a comprehensive system in place and uses the Joint Audit
Management Enterprise System (JAMES) to track all audit recommendations.
The IRS disagreed with the remaining recommendation to strengthen the policies and procedures
for reviewing its FFMIA remediation plans. IRS management stated that the Financial
Management Control Executive Steering Committee, chaired by the Chief Financial Officer,
provides policy guidance and oversight of the IRS management controls program. In FY 2009,
the Chief Financial Officer established a business unit working group to ensure corrective
actions are current and all remediation plans include actions to address audit findings. The IRS
also stated that the Associate Chief Financial Officer for Corporate Planning and Internal Control
and the Deputy Chief Financial Officer review all remediation plans quarterly to ensure actions
are addressed. Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
We agree with the IRS’ establishment of a business unit working group to ensure corrective
actions are current and all remediation plans include actions to address audit findings. However,
if these controls were working as intended, the IRS should have identified and addressed the
issues included in our report. We discussed this further with IRS management, and they stated
that they had additional documentation to support the closing of certain recommendations that
was not provided to the audit team during our review. As a result, we were not able to evaluate
the effectiveness of these controls.
We also understand that the IRS uses the JAMES as its primary tracking system for all audit
report recommendations, including FFMIA recommendations and corrective actions. However,
during our review, we found that the IRS had difficulty researching the recommendations in the
JAMES. As a result, we believe that solely relying on the JAMES does not provide the IRS with
adequate assurance that it can effectively track the FFMIA recommendations and actions. We

                                                                                                 4
                                  The Internal Revenue Service’s
                         Federal Financial Management Improvement Act
                           Remediation Plan As of December 31, 2008



discussed this further with IRS management and they stated that they have additional internal
IRS tracking reports that they use to monitor FFMIA recommendations and actions. However,
this information also was not provided to the audit team during our review. As a result, we were
not able to evaluate the effectiveness of these controls. We will follow up on these two
recommendations during subsequent FFMIA audits.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                               5
                                            The Internal Revenue Service’s
                                   Federal Financial Management Improvement Act
                                     Remediation Plan As of December 31, 2008




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          No Intermediate Target Dates Were Extended on Any of the Open
          Remedies ......................................................................................................Page 3
          Progress Was Made in Addressing Material Weaknesses in Internal
          Controls; However, Improvements Are Still Needed for Compliance
          With the Federal Financial Management Improvement Act of 1996 ...........Page 4
          Improvements Are Needed to Procedures to Track Open Findings and
          Recommendations.........................................................................................Page 5
                    Recommendation 1:........................................................Page 7

                    Recommendation 2: .................................................................. Page 8

          Resource Information Continues to Be Unsupported and Incomplete .........Page 9
                    Recommendations 3 and 4: ..............................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measure ................................................................Page 17
          Appendix V – Financial Management Remediation Action Projects...........Page 18
          Appendix VI – Management’s Response to the Draft Report ......................Page 20
                 The Internal Revenue Service’s
        Federal Financial Management Improvement Act
          Remediation Plan As of December 31, 2008




                Abbreviations

FFMIA     Federal Financial Management Improvement Act of 1996
FY        Fiscal Year
GAO       Government Accountability Office
IFS       Integrated Financial System
IRS       Internal Revenue Service
JAMES     Joint Audit Management Enterprise System
                                         The Internal Revenue Service’s
                                Federal Financial Management Improvement Act
                                  Remediation Plan As of December 31, 2008




                                           Background

The Federal Financial Management Improvement Act of 1996 (FFMIA)1 established in statute
certain financial management systems requirements that were already established by executive
branch policies. The FFMIA was intended to advance Federal Government financial
management by ensuring that Federal Government management systems can and do provide
reliable, consistent disclosure of financial data. Further, this disclosure should be done on a basis
that is uniform across the Federal Government from year to year by consistently using
professionally accepted accounting standards. Specifically, FFMIA Section 803 (a) requires
each agency to implement and maintain systems that comply substantially with:
      •    Federal Government financial management systems requirements.
      •    Applicable Federal Government accounting standards.
      •    The Government Standard General Ledger at the transaction level.
Auditors are required to report on agency compliance with the three stated requirements as part
of financial statement audit reports. Agency heads are required to determine, based on the audit
report and other information, whether their financial management systems comply with the
FFMIA. If the agency’s financial systems do not comply, the agency is required to develop a
remediation plan that describes the resources, remedies, and intermediate target dates for
achieving compliance and to file the plan with the Office of Management and Budget. In
addition, FFMIA Section 804 (b) requires that agency Inspectors General report to Congress
instances when and reasons why an agency has not met the intermediate target dates established
in its remediation plan.
In the last several years, the Government Accountability Office (GAO) has reported numerous
financial management weaknesses in its audits of the Internal Revenue Service’s (IRS) annual
financial statements and related assessments of internal control. Due to these weaknesses, the
IRS’ financial management systems have not been in substantial compliance with the
requirements of the FFMIA. Consequently, the IRS has been required to prepare and maintain a
remediation plan.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of the Chief Financial Officer during the period December 2008 through April 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our

1
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                              Page 1
                                  The Internal Revenue Service’s
                         Federal Financial Management Improvement Act
                           Remediation Plan As of December 31, 2008



audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 2
                                          The Internal Revenue Service’s
                                 Federal Financial Management Improvement Act
                                   Remediation Plan As of December 31, 2008




                                         Results of Review

The IRS continues to face challenges with reporting complete and verifiable resource estimates
in its FFMIA remediation plans. During our review of the IRS’ December 31, 2008, FFMIA
remediation plan, the IRS was unable to provide supporting documentation for certain resource
estimates, totaling $41.3 million. In addition, we found that the IRS did not include complete
resource estimates for several remediation actions included in its December 31, 2008, FFMIA
remediation plan. Further, the IRS does not have effective procedures to track and report all
open recommendations in its FFMIA remediation plan.
Accurate and complete resource estimates are necessary to effectively evaluate the commitments
needed to fully implement all of the remediation actions presented in the IRS’ FFMIA
remediation plan. Without the appropriate estimates, the remediation actions could be delayed as
a result of insufficient resources being available when needed. Until the IRS develops and
completes the necessary remediation actions to address all of the GAO’s open findings and
recommendations, the IRS will continue to be noncompliant with the FFMIA.

No Intermediate Target Dates Were Extended on Any of the Open
Remedies
During Calendar Year 2008, the IRS reported that it:
       •   Canceled 25 and added 50 remediation actions to the 34 open remediation actions in its
           December 31, 2007, remediation plan.
       •   Completed 18 remediation actions, leaving 41 open remediation actions in its
           December 31, 2008, remediation plan.
The 25 canceled remediation actions were related to Computer Security2 and resulted from a new
Computer Security plan that was approved in April 2008. These 25 actions were replaced by
39 new expanded remediation actions for the same project. We found that 4 of the 39 new
remediation actions significantly extend the completion dates of the remediation actions related
to Computer Security, causing some actions to be extended beyond 3 years. As required, the
IRS, through the Department of the Treasury, properly obtained Office of Management and
Budget concurrence to extend its corrective actions beyond the 3-year limitation. The remaining
11 remediation actions added in Calendar Year 2008 were related to the Custodial Detail Data
Base, Redesign Revenue Accounting Control System, and Automated Trust Fund Recovery


2
    See Appendix V for a description of the projects mentioned in the report.
                                                                                            Page 3
                                    The Internal Revenue Service’s
                           Federal Financial Management Improvement Act
                             Remediation Plan As of December 31, 2008



System. These additional actions did not materially affect the completion dates for any existing
remediation actions.
All of the 41 open actions were associated with 3 major financial management projects or issues:
    •   Custodial Detail Data Base – 4 remediation actions.
    •   Redesign Revenue Accounting Control System – 4 remediation actions.
    •   Computer Security – 33 remediation actions.
Our review of the 41 open remediation actions indicated that the IRS missed no intermediate
target dates. Although the IRS was able to meet the target dates for all open remedies, any future
delays could hinder the IRS’ ability to make timely resolutions of the reported issues that caused
its noncompliance with the FFMIA.

Progress Was Made in Addressing Material Weaknesses in Internal
Controls; However, Improvements Are Still Needed for Compliance
With the Federal Financial Management Improvement Act of 1996
In November 2008, the GAO reported3 that the IRS continued to make significant strides in
addressing its financial management challenges and material weaknesses in internal controls.
Specifically, the GAO noted that the IRS’ progress to address control deficiencies over the
collection of unpaid taxes and the issuance of improper refunds is such that the GAO no longer
considers the remaining control deficiencies in this area to constitute a material weakness.
However, the GAO continued to report that the IRS’ financial management systems did not
substantially comply with the requirements of the FFMIA. The GAO highlighted the following
as reasons for the noncompliance:
    •   Noncompliance with Federal Financial Management Systems Requirements.
    •   Noncompliance with Federal Accounting Standards.
    •   Noncompliance with United States Government Standard General Ledger.
    •   Material weaknesses in information security controls.
    •   Reliance on obsolete systems.
    •   Lack of interface between systems.



3
 FINANCIAL AUDIT: IRS’s Fiscal Years 2008 and 2007 Financial Statements (GAO-09-119, dated
November 2008).


                                                                                             Page 4
                                       The Internal Revenue Service’s
                              Federal Financial Management Improvement Act
                                Remediation Plan As of December 31, 2008



The GAO reported that these financial challenges adversely affect the IRS’ ability to fulfill its
responsibilities as the nation’s tax collector and prevents it from routinely obtaining
comprehensive, timely, accurate, and useful information for day-to-day decision making.

Improvements Are Needed to Procedures to Track Open Findings and
Recommendations
During our review of the IRS’ December 31, 2008, FFMIA remediation plan, we found that the
GAO recommendation relating to the development of meaningful cost data was not addressed in
that plan. Specifically, the GAO recommended that the IRS develop the data to support
meaningful cost information categories and cost-based performance measures. On
September 30, 2008, the IRS canceled the remediation action intended to address this
recommendation and provided the following explanation in its September 30, 2008, FFMIA
remediation plan:
         The IRS has a detailed cost allocation methodology that provides full cost information to
         the five operating business units and three complete years of fully allocated cost data in
         IFS.4 The Statement of Net Cost is produced from the Integrated Financial System cost
         accounting module. The IRS briefed the GAO on the capability to calculate the full cost
         of products and services.
During our fieldwork, IRS management informed us that the IRS considers this recommendation
to be fully addressed and that funding is currently not available for updates to the IFS. However,
the IRS was unable to provide supporting documentation that the GAO considered the
recommendation closed. In addition, in November 2008, the GAO reported5 that:
         IRS’s financial management systems do not comply with federal accounting standards
         because IRS did not have reliable, current information on the costs of its activities
         available to support decision making on a routine basis, consistent with Statement of
         Federal Financial Accounting Standards No 4, Managerial Cost Accounting. Although
         IRS believes its recently completed cost pilots have demonstrated its ability to do so, IRS
         has not applied the cost information maintained in the cost module of IFS to the tax
         related activities processed by separate legacy information systems.
Based on the GAO findings noted above, we consider this recommendation to be unaddressed
and, as a result, it should be included in the IRS’ FFMIA remediation plans as an open
recommendation. To ensure that the IRS’ FFMIA remediation plans are effective, we believe
that the IRS should (1) obtain written concurrence from both the GAO and the Department of the

4
  The Integrated Financial System (IFS) was acquired by the IRS to provide timely, detailed financial, cost
accounting, property accounting, and procurement data to authorized users.
5
  FINANCIAL AUDIT: IRS’s Fiscal Years 2008 and 2007 Financial Statements (GAO-09-119, dated
November 2008).
                                                                                                              Page 5
                                    The Internal Revenue Service’s
                           Federal Financial Management Improvement Act
                             Remediation Plan As of December 31, 2008



Treasury that a recommendation is fully addressed prior to removing the associated remediation
action(s) from its FFMIA remediation plan and (2) include in its FFMIA remediation plan the
justification for removing the recommendation(s), the status of the recommendation(s), and
whether additional remediation actions will be developed and included in subsequent
remediation plans. It is also important that the IRS continue to report open recommendations
regardless of funding availability. Specifically, the remediation actions associated with the open
recommendations should be presented, along with an explanation that resources are currently not
available.
During our fieldwork, we also identified another GAO recommendation6 that was removed from
the IRS’ FFMIA remediation plan and, although this recommendation was no longer associated
with a reportable condition, we met with IRS management to determine the status of
implementing the recommendation. IRS management informed us that they were unaware that
the remediation action was removed from the IRS’ remediation plan. After IRS management
researched the issue, they discovered that the remediation action was removed several years prior
to the December 31, 2008, plan; however, they were not certain of the reason since the GAO
considers it to be an open issue that needed to be addressed. IRS management stated that they
planned to research the issue further and would consider adding additional remedies to address
this open recommendation. Because the IRS lacks a comprehensive FFMIA tracking system, it
was unable to promptly identify when the recommendation and the associated remediation
actions were removed from the IRS’ FFMIA remediation plan and the basis for removal.
On April 1, 2009, we provided the IRS with a discussion draft of our review, and the IRS
provided the following comments relating to this recommendation:
        The remediation plan action was incorporated into a higher level action that required
        IRS to implement Release 2 of the Integrated Financial System (IFS), which included the
        Asset Management module that provides the functionality for subsidiary ledgers for
        property and equipment. The Treasury Department concurred that all IFS Release 2
        actions could be canceled due to lack of funding for the IFS upgrade. The actions were
        canceled, as approved, and replacement actions will be established once funding is
        provided so realistic dates for future actions can be determined. It is not known when
        funding for the IFS upgrade will occur, and therefore, the recommendation remains
        closed.
We met with IRS management regarding the comments received, and we were informed that
during their initial review they had not researched the status of the recommendation in the



6
  Internal Revenue Service: Recommendations to Improve Financial and Operational Management (GAO-01-42,
dated November 17, 2000). This recommendation is reported as “open” in the GAO report, Internal Revenue
Service: Status of GAO Financial Audit and Related Financial Management Report Recommendations
 (GAO-08-693, dated July 2008).
                                                                                                  Page 6
                                      The Internal Revenue Service’s
                             Federal Financial Management Improvement Act
                               Remediation Plan As of December 31, 2008



Department of the Treasury’s Joint Audit Management Enterprise System (JAMES).7 Although
the information contained in the JAMES provided the IRS with additional details regarding the
closing of the recommendation, we believe the IRS’ exclusive use of the JAMES is not an
effective or efficient tracking tool for monitoring the FFMIA remediation actions. The JAMES
is a Department-wide tracking system and, as of January 1, 2008, there were over
4,000 corrective actions recorded in the system. In addition, we found that sorting through the
information contained in the JAMES can be rather cumbersome depending on the number of
planned corrective actions associated with each recommendation. For example, the IRS
provided us with a report from the JAMES that included several pages of corrective actions for
each recommendation. Specifically, one recommendation had 16 planned corrective actions that
resulted in an 8 page report, and another recommendation had 26 planned corrective actions
covering 12 pages. Reading through the 16 and 26 planned corrective actions, respectively, to
obtain information relating to 1 FFMIA corrective action is not an efficient use of resources.
Although the IRS is required to record and track its corrective action plans in the JAMES, we
believe that the IRS needs to supplement its use of the system by developing a separate process
for tracking key information for each recommendation and corrective action related to the
FFMIA. For example, the IRS needs to document and maintain a high-level synopsis for each
recommendation and corrective action, which would include the origination date for each
recommendation and corrective action, the date the recommendation and corrective action was
closed or canceled, and the date the action was closed in the JAMES. Overall, the tracking
system should provide a high-level summary for IRS management to (1) adequately monitor the
status of all current and prior remediation actions and (2) timely respond to inquires regarding
the IRS’ FFMIA remediation plans. This supplemental tracking system would provide more
assurance that remediation actions are not removed until the IRS fully addresses the
recommendation. If remediation actions are inappropriately removed, findings and
recommendations will remain open and the IRS will continue to be noncompliant with the
FFMIA. We will continue to monitor the FFMIA remediation plan updates throughout Calendar
Year 2009.

Recommendations
Recommendation 1: The Chief Financial Officer and the owners of the individual
remediation actions should strengthen the policies and procedures for reviewing the IRS’ FFMIA
remediation plans to effectively ensure that future plans include all open findings and
recommendations and that there are remediation actions to address such findings.

7
  The JAMES supports the customers in their management of audit findings and recommendations. It is used to
monitor the progress and implementation of planned corrective actions to correct audit findings and material
weaknesses. The JAMES is a Department-wide system accessible to the customers, Departmental management, the
Department of the Treasury Office of Inspector General, and the Treasury Inspector General for Tax Administration.
It contains tracking information on all actions required to address audit findings and recommendations.
                                                                                                          Page 7
                                  The Internal Revenue Service’s
                         Federal Financial Management Improvement Act
                           Remediation Plan As of December 31, 2008



       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that the Financial Management Control Executive Steering Committee, chaired by
       the Chief Financial Officer, provides policy guidance and oversight of the IRS
       management controls program. In Fiscal Year (FY) 2009, the Chief Financial Officer
       established a business unit working group to ensure corrective actions are current and all
       remediation plans include actions to address audit findings. The Associate Chief
       Financial Officer for Corporate Planning and Internal Control and the Deputy Chief
       Financial Officer review all remediation plans quarterly to ensure actions are addressed.
       Office of Audit Comment: We agree with the IRS’ establishment of a business unit
       working group to ensure corrective actions are current and all remediation plans include
       actions to address audit findings. However, if these controls were working as intended,
       the IRS should have identified and addressed the issues included in our report. We
       discussed this further with IRS management, and they stated that they believe they have
       sufficient guidance and oversight for ensuring that all FFMIA open findings and
       recommendations are included in its FFMIA remediation plans. In addition, IRS
       management stated that they had additional documentation to support the closing of
       certain recommendations that was not provided to the audit team during our review. As a
       result, we were not able to evaluate the effectiveness of these controls. We will follow up
       on this recommendation during subsequent FFMIA audits.
Recommendation 2: The Chief Financial Officer should develop a comprehensive system for
tracking the remediation actions included in the IRS’ FFMIA remediation plans to effectively
ensure that the reason for removing a remediation action is properly documented and maintained.
This would provide the users of the FFMIA plan with a consolidated list of open and closed
remediation actions as well as an explanation for any additions or deletions. Additionally, the
IRS should obtain written concurrence from the GAO and the Department of the Treasury that a
recommendation is fully addressed prior to removing the associated remediation action(s) from
its FFMIA remediation plan.
       Management’s Response: The IRS agreed with this recommendation, in part. The
       IRS stated that it obtains written concurrence from the Department of the Treasury when
       it requests to close a material weakness or significant deficiency. The IRS also stated that
       it will continue to work with the GAO to demonstrate how the actions it has taken
       address the material weaknesses and significant deficiencies. The GAO addresses the
       status of its recommendations in its Annual Audited Financial Statement report and its
       annual Status of GAO Financial Audit and Related Financial Management
       recommendations. The IRS disagreed with the part of the recommendation regarding the
       comprehensive tracking system. The IRS stated that it currently has a comprehensive
       system in place and uses the JAMES to track all audit recommendations issued by the
       Department of the Treasury’s Office of Inspector General, the Treasury Inspector General
       for Tax Administration, and the GAO, including auditor reported material weaknesses

                                                                                            Page 8
                                     The Internal Revenue Service’s
                            Federal Financial Management Improvement Act
                              Remediation Plan As of December 31, 2008



        and significant deficiencies in accordance with Treasury Directive 40-03 (Treasury Audit
        Resolution, Follow-up, and Closure). In addition, the Financial Management Control
        Executive Steering Committee monitors all corrective action plans related to open
        material weaknesses and significant deficiencies and approves additions and deletions to
        these plans.
        Office of Audit Comment: We understand that the IRS uses the JAMES as its
        primary tracking system for all audit report recommendations, including FFMIA
        recommendations and corrective actions. However, during our review, the IRS had
        difficulty researching the recommendations in the JAMES. As a result, we believe that
        solely relying on the JAMES does not provide the IRS with adequate assurance that it can
        effectively track the FFMIA recommendations and actions. We discussed this further
        with IRS management and they stated that they have additional internal IRS tracking
        reports that they use to monitor FFMIA recommendations and actions. However, this
        information was not provided to the audit team during our review. As a result, we were
        not able to evaluate the effectiveness of these controls. We will follow up on this
        recommendation during subsequent FFMIA audits.

Resource Information Continues to Be Unsupported and Incomplete
We previously reported8 that some resources listed in the IRS’ December 31, 2006, FFMIA
remediation plan were not verifiable to supporting documentation and recommended that the
IRS Associate Chief Financial Officer for Corporate Planning and Internal Control review
resources listed in future plans for accuracy. Although we reported9 that the IRS took effective
steps during Calendar Year 2007 to address this finding, we continue to find instances where the
resource information for certain remediation actions is either unsupported or incomplete.
Therefore, we believe the IRS’ current procedures are not effective and additional procedures are
needed to effectively ensure that all remediation actions have verifiable and complete resource
estimates.
During our review of the IRS’ December 31, 2008, FFMIA remediation plan, the IRS was unable
to provide supporting documentation for 4 Computer Security resource estimates totaling
$41.3 million. During our audit fieldwork, IRS management stated that the $41.3 million was
based on outdated estimates and supporting documentation was not maintained. The IRS also
informed us that it will determine the appropriate resource estimates and include the estimates in
its March 31, 2009, FFMIA remediation plan.



8
  The Internal Revenue Service’s Federal Financial Management Act Remediation Plan As of December 31, 2006
(Reference Number 2007-10-077, dated May 21, 2007).
9
  The Internal Revenue Service’s Federal Financial Management Act Remediation Plan As of December 31, 2007
(Reference Number 2008-10-096, dated March 28, 2008).
                                                                                                     Page 9
                                     The Internal Revenue Service’s
                            Federal Financial Management Improvement Act
                              Remediation Plan As of December 31, 2008



The IRS also did not include complete resource estimates for several other remediation actions
included in its December 31, 2007, and December 31, 2008, FFMIA remediation plans. For
instance, during March 2008, we reported10 that 13 Computer Security remediation actions
reported in the IRS’ December 31, 2007, remediation plan included estimated resources for
FY 2008 only, even though the scheduled completion date was not until FY 2009 or beyond. In
addition, the IRS’ December 31, 2008, remediation plan did not include complete resource
estimates for three Computer Security remediation actions that had target dates that extended to
FY 2013. Specifically, we found 3 remediation actions that lacked complete resource estimates
for 4 years—FY 2010 through FY 2013. IRS management informed us that the responsibility for
these remediation actions had been reassigned to another area within the Modernization and
Information Technology Services organization and the resource estimates were not completed
beyond FY 2009. IRS management also informed us that the IRS plans to include the
appropriate resource estimates in its June 30, 2009, FFMIA remediation plan. In the future, it is
important that the IRS ensure that each remediation action includes resource estimates for each
year until the planned actions are completed.
Accurate and complete resource estimates are necessary for the IRS to effectively evaluate the
commitments needed to fully implement all of the remediation actions presented in the
FFMIA remediation plan. Without the appropriate estimates, the completion dates for the
remediation actions could be delayed as a result of insufficient resources being available when
needed. Further, until these remediation actions are completed, the weaknesses in the IRS’
financial management system related to Computer Security issues will continue to exist.

Recommendations
Recommendation 3: The Chief Financial Officer should ensure that the incomplete and
unsupported information identified during our review of the IRS’ December 31, 2008, FFMIA
remediation plan is appropriately updated in future remediation plans.
        Management’s Response: The IRS agreed with this recommendation and will
        ensure that future remediation plans include the supporting documentation for the four
        identified Computer Security resource estimates.
Recommendation 4: The Chief Financial Officer and the owners of the individual
remediation actions should strengthen the policies and procedures for reviewing the IRS’ FFMIA
remediation plans to effectively ensure that future plans include complete and verifiable financial
resource estimates for each year until the planned actions are completed.
        Management’s Response: The IRS agreed with this recommendation and will
        ensure that future remediation plans include resource estimates for each year until the

10
  The Internal Revenue Service’s Federal Financial Management Act Remediation Plan As of December 31, 2007
(Reference Number 2008-10-096, dated March 28, 2008).

                                                                                                   Page 10
                           The Internal Revenue Service’s
                  Federal Financial Management Improvement Act
                    Remediation Plan As of December 31, 2008



planned actions are completed for the identified remediation actions related to the
December 31, 2007, and December 31, 2008, remediation plans.




                                                                                      Page 11
                                   The Internal Revenue Service’s
                          Federal Financial Management Improvement Act
                            Remediation Plan As of December 31, 2008



                                                                                     Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to report to Congress, as required by the FFMIA,1 any
instances of and reasons for missed intermediate target dates established in the IRS’ FFMIA
remediation plan as of December 31, 2008. We also evaluated whether, in general, the IRS was
meeting its responsibilities in fulfilling the intent of the FFMIA. To accomplish our objective,
we:
I.     Gained an understanding of the requirements of the FFMIA, including Office of
       Management and Budget and Department of the Treasury guidance for compliance with
       the FFMIA.
       A. Reviewed the FFMIA and all related Office of Management and Budget and
          Department of the Treasury guidance.
       B. Summarized all relative procedural standards to be used during our audit tests.
II.    Determined whether the IRS’ remediation plan was consistent with
       GAO recommendations from prior IRS financial audits and related financial management
       reports.
       A. Obtained the following IRS financial statement-related reports issued by the GAO2
          since the last remediation plan audit.
           1. Opinion Report.
           2. Recommendation Report.
           3. Management Letter.
       B. Identified any financial management recommendations meeting FFMIA criteria from
          the GAO reports obtained in Step II.A.
       C. Mapped the identified GAO recommendations to the current IRS remediation plan to
          identify any recommendations not included in the plan.
       D. If instances were identified, inquired of IRS officials as to why the GAO
          recommendations were not included.

1
 Pub. L. No. 104-208, 110 Stat. 3009.
2
 FINANCIAL AUDIT: IRS’s Fiscal Years 2008 and 2007 Financial Statements (GAO-09-119, dated
November 2008) and INTERNAL REVENUE SERVICE: Status of GAO Financial Audit and Related Financial
Management Report Recommendations (GAO-08-693, dated July 2008).
                                                                                            Page 12
                                       The Internal Revenue Service’s
                              Federal Financial Management Improvement Act
                                Remediation Plan As of December 31, 2008



III.    Determined whether 1) the IRS missed any intermediate target dates established in its
        remediation plan, 2) intermediate target dates were extended without sufficient
        documentation to support the revised dates, and 3) proper approval was obtained for
        remediation actions extending more than 3 years.
        A. Verified that all remedial actions have intermediate target dates established.
        B. Identified instances when the IRS has not met the intermediate target dates.
        C. If instances of missed dates were identified, inquired of IRS officials as to the reason
           the IRS did not meet the intermediate target date.
        D. Evaluated the impact the missed intermediate target date had on the IRS in meeting
           the established goal of the remedial action.
        E. Compared the December 31, 2008, IRS FFMIA remediation plan to prior plans to
           identify intermediate target dates that have changed since the previous Treasury
           Inspector General for Tax Administration review, and obtained and analyzed
           documentation in support of any changes.
        F. Identified any intermediate target dates extending more than 3 years since the
           recommendation was reported.
        G. If instances of intermediate target dates extending longer than 3 years were identified,
           verified that approval was requested of the Office of Management Budget.
IV.     Determined whether 1) the IRS remediation plan had established resource needs for
        remediation actions and 2) the resources presented were consistent with supporting
        documentation.
        A. Verified that resource requirements were identified for all remedial actions.
        B. Obtained budget information.
        C. Traced remediation plan resources to budget information.
        D. If differences were identified, inquired of IRS officials as to the reason the resource
           needs did not match budget information.
        E. Evaluated the impact, if any, of deferring additional releases of the IFS3 on the IRS’
           FFMIA remedial actions and whether the IRS has plans to reduce the impact.




3
 The IFS was acquired by the IRS to provide timely, detailed financial, cost accounting, property accounting, and
procurement data to authorized users.
                                                                                                          Page 13
                                The Internal Revenue Service’s
                       Federal Financial Management Improvement Act
                         Remediation Plan As of December 31, 2008



V.   Determined whether the IRS had taken adequate corrective actions on prior reported audit
     findings related to the FFMIA remediation plan.
     A. Identified prior audit findings and corresponding management responses concerning
        corrective actions that should have been completed by the time of our audit.
     B. Confirmed through discussions/observations that actions had been completed.
     C. Performed tests, to the extent needed, to determine the effectiveness of the corrective
        actions.




                                                                                        Page 14
                                The Internal Revenue Service’s
                       Federal Financial Management Improvement Act
                         Remediation Plan As of December 31, 2008



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Michelle Philpott, Audit Manager
Kenneth E. Henderson, Lead Auditor
William E. Thompson, Lead Auditor
Seth A. Siegel, Senior Auditor
Rashme Sawhney, Auditor




                                                                                  Page 15
                                The Internal Revenue Service’s
                       Federal Financial Management Improvement Act
                         Remediation Plan As of December 31, 2008



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO




                                                                       Page 16
                                         The Internal Revenue Service’s
                                Federal Financial Management Improvement Act
                                  Remediation Plan As of December 31, 2008



                                                                                    Appendix IV

                                           Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Reliability of Information – Actual; $41.3 million of the resource estimates reported in the
      IRS’ December 31, 2008, FFMIA1 remediation plan could not be verified from the
      supporting documentation provided by the IRS (see page 9).

Methodology Used to Measure the Reported Benefit:
To determine whether the IRS reliably reported estimated resources in its December 31, 2008,
FFMIA remediation plan, we compared the estimated resources to the supporting documentation
and interviewed selected IRS personnel. Our analysis determined that $41.3 million of the
reported resources could not be verified from the supporting documentation provided by the IRS.




1
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                             Page 17
                                        The Internal Revenue Service’s
                               Federal Financial Management Improvement Act
                                 Remediation Plan As of December 31, 2008



                                                                                                    Appendix V

    Financial Management Remediation Action Projects

The IRS initiated five financial management projects in response to the various material
weaknesses identified by the GAO and the Treasury Inspector General for Tax Administration
relating to the FFMIA.1 The IRS described the functionality of the projects contained in its
remediation plan as follows.
Custodial Detail Data Base: To more accurately report a single balance due for Trust Fund
Recovery Penalty2 assessments and determine areas for improvement, the IRS Chief Financial
Officer developed a Trust Fund Recovery Penalty database. This database is the first release of
the Financial Management Information System enhancement to the Custodial Detail Data Base
that will enable the IRS to address many of the outstanding financial management
recommendations. Full Custodial Detail Data Base functionality will be accomplished in four
releases.
     •   Release I – Unpaid Assessments subledger.
     •   Release II – Master File3 transactions and Electronic Funds Transfer Payment System4
         preposted transactions.
     •   Release III – All other preposted revenue receipt transactions and refund transactions.
     •   Release IV – Frozen Credit subledger and Excise Tax Allocations.
The Redesign Revenue Accounting Control System: The current Redesign Revenue
Accounting Control System records financial transactions pertaining to taxpayer processing and
is the IRS custodial accounting system of record. Although the IRS has received 11 consecutive
clean opinions on its financial reports, the GAO continues to cite several material weaknesses
with custodial accounting pertaining to traceability and noncompliance with the United States
Standard General Ledger, among other issues. The IRS Submissions Processing function also
requested that the Redesign Revenue Accounting Control System consolidate reporting due to



1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  When a company does not pay the taxes it withholds from employee wages, such as Social Security or individual
income tax, the IRS has the authority to assess all responsible corporate officers individually for the taxes withheld
via the Trust Fund Recovery Penalty.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  The IRS system that allows taxpayers to make their Federal tax payments electronically.
                                                                                                              Page 18
                                        The Internal Revenue Service’s
                               Federal Financial Management Improvement Act
                                 Remediation Plan As of December 31, 2008



campus5 consolidation and to relieve the campus directors’ burden to certify monthly reports. In
addition, the Redesign Revenue Accounting Control System does not conform to the current
IRS Enterprise Architecture.
Automated Trust Fund Recovery System: This system provides the capability to
systematically upload Trust Fund Recovery Penalty assessments from the Area Offices6 and
properly cross-references payments received for assessments made. The Automated Trust Fund
Recovery System replaced manual processes for assessing penalties and cross-referencing
payments and is designed to ensure compliance with the GAO requirements and accounting
standards.
Integrated Financial System: This system provides the IRS with an integrated accounting
system to account for and control resources. It includes a Core Financial System (General
Ledger, Accounts Receivable, Accounts Payable, Funds and Cost Management, and Financial
Reporting) as well as a Budget Formulation system and a 3-year rolling forecast.
Computer Security: This project addresses internal control deficiencies cited in various audits;
initiates efforts to develop controls implemented at campuses, field offices, and post-of-duty
offices to ensure uniformity and consistency; develops appropriate means through which the IRS
can carry out periodic reviews of the effectiveness of policies and procedures, along with means
to address security breaches; updates access control standards to reflect changes in technology
and operating environments; provides computer security training to personnel; and conducts
computer security self-assessment reviews that identify and alleviate vulnerabilities on a
proactive basis.




5
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
6
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 19
                 The Internal Revenue Service’s
        Federal Financial Management Improvement Act
          Remediation Plan As of December 31, 2008



                                               Appendix VI

Management’s Response to the Draft Report




                                                       Page 20
         The Internal Revenue Service’s
Federal Financial Management Improvement Act
  Remediation Plan As of December 31, 2008




                                               Page 21
         The Internal Revenue Service’s
Federal Financial Management Improvement Act
  Remediation Plan As of December 31, 2008




                                               Page 22
         The Internal Revenue Service’s
Federal Financial Management Improvement Act
  Remediation Plan As of December 31, 2008




                                               Page 23
